Supreme Court, U.S.
FILED

FEB 2 6 2021
OFFICE OF THE CLERK

20-7645
No.
In The

Supreme Court of tfje fHntteb States
Joshua Horn,
Petitioner,
v.
Wal-Mart Stores, Inc., store 1903.
Respondent.

On Petition for Review to
the California Supreme Court

PETITION FOR WRIT OF CERTIORARI

Joshua Horn
P.O. BOX 1388
Penn Valley, CA 95946
(530) 432-6657
In Forma Pauperis/Pro Se
Counsel for Certiorari

RIGINAL

J.

N

QUESTIONS PRESENTED
The entire world witnessed the countless acts of domestic
terrorism lodged against this nation’s most sacred symbol of
democracy on January 6, 2021. Domestic terrorism takes
many forms and they are not all physically violent. Systemic
racism marches hand-in-hand with domestic terrorism in this
case as the trial court has willfully neglected its duty to allow
due process with equal protection of law while disregarding
this Court’s due process conceptions followed by resulting
litigation. Due process requires that the procedures by which
laws are applied must be evenhanded, so that individuals are
not subjected to the arbitrary exercise of government power.
Marchant v. Pennsylvania R.R., 153 U.S. 380, 386 (1894).
Each reviewing court has deliberately disregarded the United
States Constitution and its clauses of due process and equal
protection under law. The Questions presented are:
1. Whether, in accordance with this Court’s directive
regarding the interpretation of due process and equal pro­
tection, the trial court’s awarded judgment against the
Petitioner was founded on legal error and/or (prejudice)
judicial misconduct after applying two separate standards
of care for two separate litigants requesting identical re­
lief; allowing due process and equal protection for one
who is White and disallowing due process and equal pro­
tection to the other who is Black.
2. Whether the Petitioner had a liberty interest in the fair
administration of justice and the right to procedural due
process under law, free of discrimination and retaliation.
3. Whether, based on the evidence and by listing and
weighing a series of factors which in totality showed in­
vidious discrimination, the trial court’s actions amounted
to a relentless effort to exclude the Petitioner from having
his case transferred and/or presided over in alignment

11

with California law and both state and federal constitu­
tions.

PARTIES TO THE PROCEEDING

DC] All parties appear in the caption of the case
' on the cover page.

RELATED CASES
Horn v. Wal-Mart Stores, Inc., Store 1903, ADJ10295534,
Workers’ Compensation Appeals Board (WCAB), Judgment
entered: May 20. 2019.
Horn v. Workers’ Compensation Appeals Board, C090184,
California Appellate Court, Third District, Judgment entered:
November 15, 2019.
Horn v. Workers’ Compensation Appeals Board, S259531,
California Supreme Court, Judgment entered: December 10,
2019.

TABLE OF CONTENTS
QUESTIONS PRESENTED

1

PARTIES TO THE PROCEEDING

m

TABLE OF AUTHORITIES

iv

INDEX TO APPENDECIES

v

PETITION FOR WRIT OF CERTIORARI

1

OPINIONS BELOW

2

JURISDICTION

3

STATEMENT OF THE CASE........................
A. Factual and Procedural Background

3

B. Trial Court’s Willful Break From
Tradition With Partiality
REASONS FOR GRANTING THE PETITION
1.

15

THE TRIAL COURT MISAPPLIED THIS
COURT’S PRECEDENT ON PROCEDURAL
DUE PROCESS AND EQUAL PROTECTION
UNDER LAW........................................................

15

II. THE
TRIAL
COURT’S
JUDGMENT
CONFLICTS WITH THIS COURT’S CLEAR
TEACHINGS
IN
MARCHANT
V.
PENNSYLVANIA R.R., AND BOARD OF
REGENTS V. ROTH..........................................

16

CERTIFICATE OF COMPLIANCE

19

CONCLUSION

18

INDEX TO APPENDECIES
APPENDIX
Appendix A
Ruling and Opinion on Appeal from Trial Court Judgment,
California Appellate Court, Third District, Horn v. Wal-Mart
Stores, Inc., C089684 (October 1,2020)
APP-1
Appendix B
Ruling on Motion for Summary Judgment And/or Summary
Adjudication, Sutter County Superior Court, Horn v. WalMart Stores, Inc., Store 1903, CVCS 16-1624 (April 15,
2019)
APP-14
Appendix C
Order Denying Petition for Review, California Supreme
Court, Horn v. Wal-Mart Stores, Inc., S265294 (December
16, 2020)
APP-20

TABLE OF AUTHORITIES
Page
Cases:
Marchant v. Pennsylvania R.R.,
153 U.S. 380,386(1894)

1

Board of Regents v. Roth,
408 U.S. 564, 569-71 (1972)

7

Goss v. Lopez,
419 U.S. 565 (1975)

7

Cafeteria & Restaurant Workers v. McElroy,
367 U.S. 886, 894—95 (1961)

7

Logan v. Zimmerman Brush Co.,
455 U.S. at 435-36 (1982)

8

Korematsu v. United States,
323 U.S. 214, 216 (1944)

9

Arlington Heights,
429 U.S. 267-68

10

Grannis v. Ordean
234 U.S. 385, 34 S. Ct. 779, 58 L. Ed. 1363 (1914)....

16

TABLE OF AUTHORITIES—Continued
Page
Goldberg v. Kelly,
397 U.S. 254,271 (1970)

10

Marshall v. Jerrico,
446 U.S. 238, 242(1980)

10

Schweiker v. McClure,
456 U.S. 188,195 (1982)

10

Edmonson v. Leesville,Concrete Co.,
500 U.S. at 628.(1991)

13

STATUTES
42 U.S.C. §§ 1981,1983

14

UNITED STATES CONSTITUTION
14,h Amendment, Section 1

1

-v
•‘••TV .r- +

■

•. *

•-.4.

-'.rt

•'

-4’

'•

• ft. ■

-> -l

, *1;'(-

J"

TABLE OF AUTHORITIES—Continued
Page
14

IOTIhV’ :-On : Ot'C'iJ5th Amendment..........................................
•

'*;*■

.Up-. •

r

!•■

Tfeup^'ytiksfe:;'
-• szf't Mr p
] *.

14
.• i

■r.

vi* rt , •'■£.:“• sdl-^Vittf.-*/ vjja-aL*;*. '*
v OTHER AUTHORITIES .-U

.u

■' >

California-Rules^df e<iurt'5Rule(s)' \ !>'•
!
-3.1332(c)(7)(d)(8)..
Rfs*GOV.*e6dfe%^^^
•j ■>-, ;■ • .
: V >
Art
1

I

.<•

\ ' ..** « \t

A.

5

i

14

-•>

14
' i

r-:,:

i.

■ » -Wrt
•. -A' !:

?•

Ad;» u->
V
,rrx? *»/?

• rtn '■ art**
rt irtu.Vrt

rt'*''-'

{ /

‘

■-

*t J A

■- A'A

<■

%

\

rrt tfi ■'v D. !«/ f. a..;V
-i ,•;•■' •. - .- v

•. i,

j

/■ '

. UAhrtV
!-

f

■>

•A "v" A:

;

,j. .•

■ t

1

.• „•» ■ AA :

uTj-V'.ti*' - ;•

H

..-vifi

U

t

* ,1;

M

»,

tV*£ .

'1

"A 'IaA-A ^rt- '
•'•■

v'

r*

i*

••'•

(■ A • '•

: L. v- »'sk
;*

W wO:«i'i • V‘ : ^

y.r-.-^tuyV,-V: \.
*

't

'

v

■>

.!
.

••"

?•

'i

. »

VU‘

.•/ -

' •.

s

. •*-.d ! t .' «t X- - • i/
■

Hr-

.

;;><>

'iir: :

■;

::

•• '■■

'£r-!f

*! ’

: i.

. :

f

1
f

i
■

T

)

4

f!
v

!■

■l-;

:•

.•rV..

'-7^-

.-vrt-rtrt

3

JURISDICTION
The date on .which the highest state court decided my case
was December 16, 2020. * ..
A copy of that decision appears at Appendix C
The jurisdiction of this Court is invoked under 28 U.S. C. §
1257(a).
K • l.

STATEMENT OF THE CASE
While it may be natural to presume that the trial Court fol­
lowed proper procedures, that^ thc judge made findings
necessary that could be.inferred from the evidence; thfat the
judge correctly applied the law^to.the findings,,and that even
if the judge did,commit erfori>.it was not prejudicial; the
evidence shows exactly how; the trial-court’s ruling is found­
ed on legal error, judicial misconduct, systemic racism,
whiternationalism and domestic, terrorism.
It is the fundamental error oflaw which requires‘reversal
and reversal is.appropriate as the trial court ignored numer­
ous disputed issues of material factThat can be resolved.only
through trial. The trial court needs to be reminded that
governments themselves do not have sovereign power(s),
only the people are sovereign, as governments are institu­
tions. This case is particularly complexMue to direct actions
taken by employees, of the Sutter County Superior Court,
which have caused irreparable harm to the Petitioner.
The trial court’s baseless and unprecedented inteipretation
of the law surpasses the abuserof discretion arid'misconduct
as it equates to willful neglect of duty, domestic terrorism
and acts of moral turpitude. Under the trial court’s theory, an
African-American, disabled, low-income citizen of the state
of California and of the United States of America, is sub­
human and has no birthright to the same rights' and liberties
secured to (white) citizens by the California Constitution
and/or the Constitution of the United States. The trial court’s

4
rulings and use (abuse) of discretion, administered with everincreasing employment of systemic racism, squarely conflict
with decisions of higher courts in addition to both state and
federal constitutions.
A. FACTUAL AND PROCEDURAL BACKGROUND
The Petitioner (Joshua Horn, Mr. Horn, Appellant or
Plaintiff), during status conference proceedings of September
24, 2018 and November 26, 2018 verbally communicated to
the trial court that he was unable to successfully move
forward with the discovery process due to the Respondent’s
(Defendant or Appellee) legal counsel’s failure and/or refusal
to cooperate within the laws of California Code of Civil
Procedure (CCP) and California Rules of Court (CRC). The
trial court (Perry Michael Parker) bypassed Mr. Horn’s right
to due process and equal protection under the law when he
explained that some judges allowed parties to contact them
whenever there was a dispute and assist them in resolving
them, and that he was not one of those said judges. The trial
court offered no other means of resolution to Mr. Horn’s
discovery disputes. Mr. Horn was not provided the full and
fair opportunity to present his disputes of discovery before
the trial court as Judge Perry Parker refused to hear Mr.
Horn’s disputes in any capacity.
Based on the unethical actions taken by the trial court’s
employees against Mr. Horn, and the acts of judicial bi­
as/misconduct by Judge Perry Parker, Mr. Horn chose to
rescue himself from further discrimination, retaliation,
constitutional and civil violations by filing a motion to
transfer his case (change of venue) to another Superior Court
with the adequate judicial resources to properly hear his case.
The superior court the Petitioner sought to be transferred to
(Santa Clara County) had audio recorded hearings available
to the public as well as a significantly higher level of trans­
parency in comparison to Sutter County. This was expressed
via Mr. Horn’s Change of Venue motion.

5

The trial court (Judge Perry Michael Parker) heard Mr.
Horn’s motion for transferring his case on February 4, 2018
and abruptly ruled against Mr. Horn without providing any
case law, statutory or judicial authority of any kind. The trial
court also ordered the Respondent’s legal counsel to prepare
an order in accordance with its ruling. The Respondent’s
legal counsel never complied with the trial court’s instruc­
tions and Mr. Horn’s motion for transfer was ignored by the
trial court and was never fully addressed or ruled on. The
Petitioner was never afforded due process regarding his
motion for transfer, which remains outstanding and un­
addressed to present day. The trial court’s minute order
ruling is insufficient as well as non-enforceable. The evi­
dence shows that the trial court made numerous efforts, going
above and beyond; in order to disallow the fair administra­
tion of justice, due process and/or equal protection under law
for the Petitioner while providing a completely different
standard of care to the Defendant and its counsel.
Comparing systemic racism applied to the black population
within the judicial system reflects a familiar image of a
historical showing of past discrimination, of systemic exclu­
sion of blacks from the political process as well as education­
al segregation and discrimination, combined with continued
unresponsiveness of elected officials to the needs of the black
community, which indicated the presence of discriminatory
motivation. This Court has looked to the “depressed socio­
economic status” of the black population as being both a
result of past discrimination and a barrier to black access to
voting power.
Consequently, the trial court’s Judge Perry Michael Parker
has either not received payment of wages since February 4,
2018; or Perry Michael Parker has knowingly lied under
penalty of perjury via affidavit (multiple times) that he has
addressed any and all matters brought before him no later
than ninety (90) days after having been submitted; which

6
would be necessary in order for him to legally accept his
payroll issuance comprised of California tax-payer money.
A public office is a public trust. The incumbent has a
property right in it, but the office is conferred, not for his or
her benefit, but for the benefit of the political society. The
nature of the duty suggests the remedy in case of neglect. If
the duty neglected is a duty to the state, he or she is amenable
to the state for his or her fault.
Instead of allowing Mr. Horn to transfer his case to the
Santa Clara County Superior Court, the trial court chose to
punish the Plaintiff for exercising his constitutional rights by
awarding the Defendant with monetary sanctions against him
in addition to paying the Defendant’s legal fees. The Re­
spondent’s legal counsel filed a motion to compel in the
wake of Mr. Horn’s very recent written and verbal com­
plaints of discovery disputes between himself and the Re­
spondent’s legal counsel. The trial court heard the Respond­
ent’s motion on February 25, 2019 and ruled on the motion
on March 1, 2019. The trial court ruled in the Respondent’s
favor but failed to substantiate how or why it came to its
decision.
The trial court has shown it is competent enough to pro­
vide case law, citations, statutes, codes, etc. via other motion
rulings; however, the trial court chose not to provide that
same standard duty of care to the Appellant when it made a
ruling against Mr. Horn, awarding the Respondent over
$4,000.00 (four thousand dollars) in sanctions, fees and costs
without explaining how the trial court determined the dollar
amount it did and/or why. The trial court instructed the
Appellant to comply with the terms within the ruling within
twenty (20) days, however; the trial court never executed the
proposed order provided by the Respondent until months
after the Petitioner had filed an appeal.
The trial court issued a ruling on March 1, 2019 granting
monetary sanctions against a low-income, disabled, African-

7
American, self-represented litigant without providing any
case law, citation, statutory authority or publication of any
kind expressing judicial authority. The trial court was aware
that the Plaintiff is disabled and of low-income as Mr. Horn
had a Fee Waiver established with the trial court. Judge Perry
Parker chose to disregard the Law by ignoring the reviewing
court’s decisions regarding low-income litigants, which all
establish a precedent that prohibits courts from imposing
improper and/or unduly burdensome sanctions, penalties
and/or legal fees/costs against self-represented litigants of
low-income with an inability to pay.
The ruling the trial court issued on March 1, 2019 was in
retaliation to Mr. Horn’s complaints filed with the Commis­
sion on Judicial Performance (CJP) against Judges Perry
Michael Parker and Brian Ross Aronson. The ruling against
the Plaintiff instructed the losing party to comply with all
terms in the ruling within twenty (20) days. This was an
attempt by the trial court to intimidate, pressure and bluff the
Plaintiff as the trial court once again, directed the Defend­
ant’s legal counsel to prepare an order in alignment with its
ruling, pursuant to CRC, rule 3.1312.
“[W]e must look not to the ‘weight’ but to the nature of
the interest at stake. . . . We must look to see if the interest is
within the Fourteenth Amendment’s protection of liberty and
property.” Board of Regents v. Roth, 408 U.S. 564, 569-71
(1972). With respect to liberty interests, this Court has
followed a similar path along the traditional concept of
liberty being freedom from physical restraint as this Court
has expanded the concept to include various other protected
interests as well. Goss v. Lopez, 419 U.S. 565 (1975). “The
very nature of due process negates any concept of inflexible
procedures universally applicable to every imaginable
situation.” Cafeteria & Restaurant Workers v. McElroy, 367
U.S. 886, 894-95 (1961).
In Ingraham v. Wright, this Court unanimously agreed that
school children had a liberty interest in freedom from wrong-

8
fully or excessively administered corporal punishment,
whether or not such interest was protected by statute. “The
liberty preserved from deprivation without due process
included the right ‘generally to enjoy those privileges long
recognized at common law as essential to the orderly pursuit
of happiness by free men.’ Additional liberties so protected
were the right to be free from, and to obtain judicial relief
for, unjustified intrusions on personal security.” This Court
also expanded the notion of “liberty” to include the right to
be free of official stigmatization, and found that such threat­
ened stigmatization could in and of itself require due process.
Thus, this Court held that postdeprivation procedures
would not satisfy due process if it is “the state system itself
that destroys a complainant’s property interest.” Logan v.
Zimmerman Brush Co., 455 U.S. at 435-36 (1982). “That is
particularly true where, as here, the State’s only post­
termination process comes in the form of an independent tort
action. Seeking redress through a tort suit is apt to be a
lengthy and speculative process, which in a situation such as
this one will never make the complainant entirely whole.”
B. TRIAL COURT’S WILLFUL BREAK FROM
TRADITION WITH PARTIALITY
Mr. Horn for several years had been involved in a separate
legal action within the WCAB (Workers’ Compensation
Appeals Board) of the Department of Industrial Relations,
Division of Workers’ Compensation prior to Mr. Horn’s
filing of his appeal. For some time Mr. Horn had litigated on
his own behalf between both courts without difficulty as each
WCAB trial hearing he had participated in had been sched­
uled weeks or months apart from proceedings within the trial
court. Mr. Horn verbally informed the trial court that he was
expecting to have a conflict in his schedule between respond­
ing to the Respondent’s MSJ (Motion for Summary Judg­
ment) and his upcoming trial hearing between himself and
Wal-Mart Stores Inc., Store #1903; the same client as the
Respondent.

9
The trial court refused to acknowledge the Plaintiffs
statement and refused to reschedule the upcoming hearing on
the Defendant’s motion for summary judgment, providing the
Defendant’s legal counsel an advantage while presiding with
a clear bias and favoritism toward the Defendant’s legal
counsel. Mr. Horn filed a motion to dismiss the Respondent’s
MSJ due to it being premature as the discovery process was
just underway and Mr. Horn had not had enough reasonable
time to perform discovery.
The trial court never ruled on Mr. Horn’s motion, but in­
stead, upon its own discretion, stayed the Defendant’s MSJ to
allow adequate time for discovery and created an extended
deadline for Mr. Horn to respond to the Defendant’s MSJ.
Mr. Horn did not ask for an extension. The trial court denied
Mr. Horn the right to due process and equal protection under
the law when it refused to issue an order explaining its
decision on Mr. Horn’s motion to dismiss the Defendant’s
MSJ. Several weeks prior to Mr. Horn’s deadline to respond
to the Respondent’s MSJ; Mr. Horn communicated to the
trial court numerous times that a continuance would be in
order due to him being involved in a separate trial the same
week as the MSJ hearing was to be held. The trial court
disregarded the Plaintiffs right to due process and ignored
the Appellant each time he communicated that he was
involved in a separate trial, verbally and in writing.
Paradigmatic of “suspect” categories is classification by
race, In Korematsu v. United States, concerning the wartime
evacuation of Japanese-Americans from the West Coast, in
which this Court claimed that because only a single ethnicracial group was involved the measure was “immediately
suspect” and subject to “rigid scrutiny.” 323 U.S. 214, 216
(1944). In applying “rigid scrutiny,’’...determining whether a
discriminatory purpose was a motivating factor “demands a
sensitive inquiry into such circumstantial and direct evidence
of intent as may be available.” Impact provides a starting
point and “[sjometimes a clear pattern, unexplainable on

10
grounds other than race, emerges from the effect of the state
action even when the governing legislation appears neutral
on its face.”
In the absence of such a pattern, a court will look to such
factors as the “historical background of the decision,” espe­
cially if there is a series of official discriminatory actions; in
which this case, there are. The specific sequence of events
may shed light on purpose, as would departures from normal
procedural sequences or from substantive considerations
usually relied on in the past to guide official actions. Arling­
ton Heights, 429 U.S. 267-68
An impartial decisionmaker is an essential right in civil
proceedings. Goldberg v. Kelly, 397 U.S. 254, 271 (1970)
“The neutrality requirement helps to guarantee that life,
liberty, or property will not be taken on the basis of an
erroneous or distorted conception of the facts or the law. .. .”
“At the same time, it preserves both the appearance and
reality of fairness by ensuring that no person will be deprived
of his interests in the absence of a proceeding in which he
may present his case with assurance that the arbiter is not
predisposed to find against him.” Marshall v. Jerrico, 446
U.S. 238, 242 (1980); Schweiker v. McClure, 456 U.S. 188,
195 (1982).
The trial court’s efforts to selectively disregard the law and
undermine any attempt to achieve fair administration of
justice in order to protect the Defendant represents the State
of California’s internal domestic acts of terror inflicted upon
its own citizens. By deliberately targeting the Plaintiff to
discriminate against him and retaliate against him when the
Plaintiff resisted the trial court’s discrimination; the trial
court has and continues to present a threat to the National
Security of the United States of America as it breaks away
from traditional judicial practices and procedures set by the
state and federal constitutions, and incorporates a separate
judicial objective premised on white-supremacy, where the

11
trial court represents an authoritarian monarchy and the judge
represents the English sixteenth-century Justice of Peace.
The Plaintiff filed, within the trial court, a notice of appeal
on June 10, 2019. Following the filing of the notice, the
Plaintiff attempted to file his notice designating the record on
appeal multiple times within the trial court only to be met by
stonewall discrimination condoned by deputy court clerk
Rhonda, deputy court clerk Ashley inguanzo and Appeals
deputy court clerk Marti Browning. Deputy court clerk
Rhonda initially refused to accept the Plaintiff’s notice
designating the record until the Plaintiff expressed that he
had been in contact with representatives from the United
States Department of Justice (U.S. DOJ), Civil Rights
Division.
Mr. Horn then communicated that simply because the
deputy court clerks Ashley Inguanzo and Rhonda had stated
that Marti Browning was under the weather and not present
at the trial court and that she would not be able to process
Mr. Horn’s notice designating the record on appeal until she
returned, that didn’t disable the trial court from fulfilling the
service of filing appeals documents.
The Plaintiff then promised to communicate to the U.S.
DOJ that both deputy court clerks Rhonda and Ashley
Inguanzo were both refusing to provide a service to the
public that the trial court was obligated to fulfill by law.
Deputy Court Clerk Rhonda then angrily agreed to accept the
Plaintiffs notice designating the record but refused to file the
document. The Plaintiff demanded to know why Deputy
Court Clerk Rhonda was refusing to file his document.
Deputy Court Clerk Rhoda expressed that she didn’t think
Mr. Horn would want her to file the document in case there
happened to be an issue with the document that would
prevent the trial court from accepting it for processing. Mr.
Horn clearly communicated that whether there was an error
or not on his form that did not prohibit the Deputy Court
Clerk from filing the time-sensitive document. After demand-

12
ing that the document be filed with the court that same day
(06-25-2019) Deputy Court Clerk Rhonda sarcastically stated
that she would file the document if that’s what Mr. Horn
wanted.
The following day Mr. Horn attempted to locate the notice
designating record on appeal via Sutter county Superior
Court’s web portal. The notice designating the record had not
been filed the day before as promised by Deputy Court Clerk
Rhonda. After speaking with Deputy Court Clerk Lisa
briefly, Mr. Horn was informed that his notice could not be
processed due to Deputy Court Clerk Marti Browning being
absent, implying that the appeals department was “out-ofservice”. Mr. Horn communicated that he would be inform­
ing the U.S. DOJ of how Sutter county Superior Court was
refusing to allow the Plaintiff full access to the public
services provided by the trial court.
Mr. Horn was then placed on hold for several minutes
before Deputy Court Clerk Lisa returned to inform Mr. Horn
that his notice designating the record would be filed within
the hour by none other than Deputy Court Clerk Rhonda. If a
judge was out sick, the trial court wouldn’t just dismiss all of
the matters that were going to be heard, an added effort
would have been put forth. Though an added effort was put
forth by the deputy court clerks of Sutter county Superior
Court; the effort was intended to prevent the Plaintiff from
successfully filing his notice designating the record on
appeal, so that Mr. Horn’s appeal would be denied constitu­
tionally due to an insufficient record to refer to and the
chances of the trial court and its employees justifiably being
held accountable in the future would be slim to zero probability.
This was a collective effort put forth on behalf of the trial
court to collectively disallow the Plaintiff to achieve fair
administration of justice by sabotaging his paperwork and
using judicial bias/misconduct to absolutely secure that the

13
Plaintiff be deprived of his civil rights, ADA rights and his
state and federal constitutional rights to due process and
equal protection under the law. The trial court’s refusal to
inteipret the CCP (California Code of Civil Procedure) and
the CRC (California Rules of Court) expeditiously, inexpen­
sively, without encumbrance of character, without improprie­
ty and/or discrimination, as the Plaintiff was clearly involved
in a separate trial matter less than seventy-two (72) hours
apart from the Defendant’s motion for summary judgment
hearing; shows that the trial court has a sub-standard business
practice for the Plaintiff that is different from its standard
business practice for the Defendant.
The consecutive and habitual failure and neglect of duty by
the deputy court clerks of the trial court was communicated
to the trial court’s executive officer: Stephanie M. Hansel;
who lied under perjury, claiming that she had investigated the
matter and found essentially the opposite of the misconduct
the Plaintiff had alleged, after forging a legal document and
claiming that said legal document had been provided to the
Plaintiff several months prior to having provided Mr. Horn
with the alleged second copy, which was missing the date
and the trial court executive officer’s signature endorsing the
correspondence.
This Court, in Rogers v. Lodge, appeared to disavow much
of Mobile and to permit the federal courts to find discrimina­
tory purpose on the basis of “circumstantial evidence”. This
Court also concluded that “the injury caused by the discrimi­
nation is made more severe because the government permits
it to occur within the courthouse itself.” Edmonson v.
Leesville Concrete Co., 500 U.S. at 628. (1991) (citations
omitted)
The Petitioner seeks recommendation to the Commission
on Judicial Performance for suspension and removal of the
trial court’s Judge Perry Michael Parker. The summary of
significant facts pertaining to matters within the record are

14
relevant in whole as this document and the Respondent’s
response will be used in federal court immediately following
the outcome of the Plaintiffs petition for writ of certiorari
within the United States Supreme Court.
The trial court, by violating the Appellant’s civil, constitu­
tional and ADA rights, has neglected its duty to public
society and to the state of California in addition to failing
and/or refusing to uphold and defend the U.S. Constitution.
When the trial court was permitted by the state’s higher
courts to collectively and individually continue to neglect its
duty and breach its oath or affirmation to uphold and defend
the California and United States Constitutions; the liability
then shifted to the court of appeals to uphold and defend the
state and federal constitutions.
As the reviewing courts neglected to uphold the state and
federal constitutions, they have allowed the trial court to
undermine the judiciary of the State of California as it
violated the Supremacy clause of the United States Constitu­
tion, which is quantifiable to an assault on democracy,
presenting a clear and present threat to the national security
of the United States of America.
The trial court has violated each of the acts, codes, statutes,
etc., listed below.
1.42 U.S.C. § 1981
2.42U.S.C. §1983
3. 5th Amendment to the U.S. Constitution
4. 14th Amendment to the U.S. Constitution
5. ADA Americans with Disabilities Act 1990
6. California Unruh Act
7. Civil Rights Act of 1871, 1964
8. California Code of Judicial Ethics
9. Supremacy Clause to the United States Constitution
10. U.S. GOV Code §§ 3331,3333

15

REASONS FOR GRANTING THE PETITION
I. THE TRIAL COURT MISAPPLIED THIS
COURT’S PRECEDENT ON PROCEDURAL DUE
PROCESS AND EQUAL PROTECTION UNDER
THE LAW.
The Petitioner illustrates the trial court’s unconstitutional
actions in great detail within his motion to vacate the trial
court’s May 29, 2019 ruling. The trial court erroneously
conflated two (2) distinct legal questions or codes of Califor­
nia Rules of Court (CRC) without citing adequate case law,
local rules or any judicial authority clarifying why the trial
court was allowing the Defendant’s legal counsel to wilfully
disregard obeying the trial court’s order to comply with
CRC, while applying the law of CRC incorrectly in order to
prevent the Appellant from receiving fair administration of
justice and/or fully presenting his case before the trial court.
(Rules 3.1332(c)(7), 3.1332(c)(d)(8)), 3.1312).
The trial court habitually refused to hold the Respondent
accountable for not following its orders regarding compiling
an order in accordance with the California Rule of Court
twice; once with the Plaintiffs motion to dismiss the De­
fendant’s MSJ and again when the trial court ordered the
Respondent’s legal counsel to produce an order in accord­
ance with the California Rules of Court regarding the Plain­
tiffs Motion for Transfer (change of venue). Neither order
has been created or provided in accordance with the law to
present day.

16
II.

THE TRIAL COURT’S UNCONSTITIONAL
JUDGMENT
CONFLICTS
WITH
THIS
COURT’S CLEAR TEACHINGS IN BOTH
MARCHANT V. PENNSYLVANIA R.R., AND
BOARD OF REGENTS V. ROTH.
The Petitioner made several attempts to file additional exparte motions for continuance but Mr. Horn’s efforts were
met with resounding backlash from the employees of the trial
court (Deputy Court Clerk Rhonda and Deputy Court Clerk
Ashley lnguanzo, in particular; discriminated against the
Appellant numerous times in attempts to prevent Mr. Horn
from successfully filing his motion for continuance ex-parte)
in addition to the trial court’s Judge Perry Michael Parker
refusing to interpret the CRC (California Rules of Court)
impartially and without discrimination.
One of the trial court’s excuses for not allowing the con­
tinuance was that the Petitioner had already received an
extension and that he did not entirely comply with the CRC.
The trial court refused to interpret the CRC by ignoring the
fact that each request for extension of time must be consid­
ered on its own merits. Mr. Horn 1) never made a request for
an extension in the past, therefore he could not have request­
ed a second extension when he never requested the first one
given at the trial courts discretion alone, and 2) did not have a
separate trial hearing scheduled during the same week as the
MSJ hearing when the first extension was given.
This is a clear abuse of discretion by a trial court that went
out of its way to assist the Defendant by prohibiting the
Appellant from benefiting from the fair administration of
justice while depriving him of his right to due process. In the
case of Grannis v. Ordean (1914) 234 U.S. 385, 34 S. Ct.
779, 58 L. Ed. 1363, this Court stated, “The fundamental
requisite of due process of law is the opportunity to be heard.
[Citations omitted.] And it is to this end, of course, that
summons or equivalent notice is employed.” (Emphasis
added. “Procedural due process imposes constraints on

17
governmental decisions which deprive individuals of “liber­
ty” or “property” interests within the meaning of the Due
Process Clause of the Fifth and Fourteenth Amendment.” Id.
at 331.
Within the same week of Mr. Horn’s MSJ hearing before
Judge Perry Michael Parker, in the matter of Myers v.
Jennings (CVCS 15-0001106) which was also before Judge
Perry Michael Parker, was set for a MSJ hearing of its own.
Prior to that hearing of January 8, 2018 at nine o’clock A.M.,
Judge Perry Michael Parker allowed counsel for Myers to file
a motion for continuance. The terms within said motion were
nearly identical to the motion for continuance filed by Mr.
Horn. The difference between the two matters was how the
law was interpreted and how due process was afforded to
Myers but not for Mr. Horn as a low-income, self-represented
litigant of color. The Petitioner was able to view the motion
for continuance filed on behalf of Myers via the trial court’s
public access portal office.
Judge Perry Michael Parker demonstrated competence,
rationale and regard for the law when he addressed the
motion for continuance filed by Myers’ counsel by ruling on
the motion’s merits in accordance with state law and not on
pre-meditated bias with an intent to find against the petition­
er. The trial court clearly showed it was capable of applying
case law, statutes, codes, local rules, etc., while presiding
over a matter where the parties to the action are (White) not
people of color, yet was Unable/unwilling to do the same
when ruling against the Petitioner, awarding the Respondent
over four (4) thousand dollars in sanctions and legal fees.

18
CONCLUSION
In every aspect the trial court has broken every law it could
to disadvantage the Petitioner and protect the judges who
violated the Appellant’s civil and constitutional rights while
the judges worked diligently to protect the Defendant’s legal
counsel from any liability for having violated countless
provisions within the California State Bar Act and the Rules
of Professional Conduct/Business and Professions Code
while litigating against the Petitioner.
The judgment(s) which review is being petitioned for are
the trial court’s rulings on the Defendant’s motion for sum­
mary judgment, the Defendant’s motion to compel, the
Plaintiffs motion to dismiss Defendant’s motion for sum­
mary judgment, the Plaintiffs motion for change of venue,
etc., essentially each of the rulings made by Judge Perry
Michael Parker that are state and federally unconstitutional.
Due to the trial court’s failure/willful neglect of duty, fail­
ure to uphold and defend the state and federal constitutions,
judicial misconduct, willful application of legal error, abuse
of discretion, domestic acts of terror and unconstitutional
rulings; the trial court should also be provided with an
opinion as to how it should have addressed the Appellant’s
discovery disputes, motion to dismiss Defendant’s MSJ,
motion for change of venue, the Defendant’s motion to
compel and motion for MSJ in addition to the Petitioner’s
allegations of misconduct. Joshua Horn submits this petition
through Jesus Chist. For the foregoing reasons, this Court
should grant the petition for certiorari.
Respectfully submitted,
Joshua Horn
P.O. BOX 1388
Penn Valley, CA 95977
(530) 432-6657
In Forma Pauperis/Pro Se
Date: February 25, 2021

CERTIFICATE OF COMPLIANCE
I hereby certify that the accompanying Petition for Writ of
Certiorari in Horn v. Wal-Mart Stores, Inc., Store 1903
complies with the word count limitations of Supreme Court
Rule 33(g) in that it contains 5,347 words, based on the
word-count function of Microsoft Word - Office 365,
including footnotes and excluding material not required to be
counted by Rule 33(g).
Date: February 25. 2021

(
Joshua Horn
Servant and Child of Jesus Christ

